No . 21-194
IN THE

Supreme Court of tlje Hmteb States
CALIFORNIA TRUCKING ASSOCIATION, INC., ETAL.,
Petitioners ,
v.

ROB BONTA, ATTORNEY GENERAL OF CALIFORNIA ,
ET AL . ,

Respondents .

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h) , I certify that the Brief In Opposition of Intervenor Respondent International Brotherhood of Teamsters
in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b) , being
prepared in Century Schoolbook 12 point type for the
text and 10 point for the footnotes , and that the brief
complies with the word limit specified by Rule
33.1(g)(ii) because it contains
words , excluding
the parts that are exempted by Supreme Court Rule
33.1(d) , as needed.

Dated: October 12, 2021

Stacey M Xeyton
ALTSHULER BERZON LLP
177 Post Street , Suite 300
San Francisco, CA 94108
(415) 421- 7151
sleyton@ altber.com
Counsel for Intervenor - Respondent
International Brotherhood of Teamsters

^

